<html>
<title> - MARKUP OF H. RES. 147, THE OMNIBUS COMMITTEE FUNDING RESOLUTION; COMMITTEE RESOLUTION ON VIEWS AND ESTIMATES ON MATTERS WITHIN THE COMMITTEE'S JURISDICTION; COMMITTEE RESOLUTION FOR FRANKED MAIL ALLOWANCES FOR CERTAIN COMMITTEES; AND COMMITTEE RESOLUTION TO APPROVE CONSULTING CONTRACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 MARKUP OF H. RES. 147, THE OMNIBUS COMMITTEE FUNDING RESOLUTION; AND 
                      THREE COMMITTEE RESOLUTIONS

=======================================================================

                                MEETING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                 Held in Washington, DC, March 9, 2011

                               __________

      Printed for the use of the Committee on House Administration

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
66-403                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001














                   COMMITTEE ON HOUSE ADMINISTRATION

                DANIEL E. LUNGREN, California, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania,
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 CHARLES GONZALEZ, Texas
RICHARD NUGENT, Florida

                           Professional Staff

                      Philip Kiko, Staff Director
                  Jamie Fleet, Minority Staff Director

 
   MARKUP OF H. RES. 147, THE OMNIBUS COMMITTEE FUNDING RESOLUTION; 
   COMMITTEE RESOLUTION ON VIEWS AND ESTIMATES ON MATTERS WITHIN THE 
    COMMITTEE'S JURISDICTION; COMMITTEE RESOLUTION FOR FRANKED MAIL 
ALLOWANCES FOR CERTAIN COMMITTEES; AND COMMITTEE RESOLUTION TO APPROVE 
                          CONSULTING CONTRACT

                              ----------                              --
--------


                        WEDNESDAY, MARCH 9, 2011

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:04 p.m., in room 
1310, Longworth House Office Building, Hon. Daniel E. Lungren 
(chairman of the committee) presiding.
    Present: Representatives Lungren, Harper, Gingrey, Schock, 
Rokita, Nugent, and Brady.
    Staff Present: Phil Kiko, Staff Director and General 
Counsel; Kimani Little, Parliamentarian; Joe Wallace, 
Legislative Clerk; Yael Barash, Assistant Legislative Clerk; 
Salley Wood, Communications Director; Karin Moore, Elections 
Counsel; George Hadjiski, Member Services Staff; Richard 
Capetto, Member Services Staff; Kyle Andersen, Minority press 
Secretary; Matt Defreitas, Minority Professional Staff; Khalil 
Abboud, Minority Elections Staff; and Thomas Hicks, Minority 
Elections Counsel.
    The Chairman. Now I would like to call to order the 
Committee on House Administration for today's markup.
    The meeting record will remain open for 5 legislative days 
so that members may submit any materials they wish to be 
included therein. A quorum is present, so we may proceed.
    First, we will mark up H. Res. 147, the Omnibus Committee 
Funding Resolution, which will authorize committee budgets for 
the 112th Congress.
    Last week, we had two informative days of hearings 
listening to the chairs and ranking members share their views 
on the respective budget proposals. Adhering to House 
Resolution 22 passed earlier this year, I am happy to say that 
each committee has proposed a budget with at least a 5 percent 
reduction from the fiscal year 2010 levels. If we include 
Judiciary, it is even lower than that.
    We are committed to leading by example and cutting 
government waste, rooting out inefficiencies, and conducting 
essential and effective oversight for vast administrative 
agencies. These budgets allow this House to fulfill that 
mission.
    We will also consider a Committee Resolution to Approve 
Franked Mail Allowances for Committees for the 112th Congress, 
a Committee Resolution to Approve Committee Views and Estimates 
for fiscal year 2012, and a Committee Resolution to Approve a 
Consulting Contract.
    I want to thank each of my colleagues on both sides of the 
aisle for their service to this committee, and thereby to the 
whole House, and for showing up so that we can have a quorum 
and complete our work.
    I would like to recognize my colleague and the committee's 
ranking member, Mr. Brady, for the purpose of providing an 
opening statement, if he wishes.
    Mr. Brady. Thank you, Mr. Chairman.
    I would like to join with Chairman Lungren in support of 
the committee funding resolution and urge my colleagues to do 
as well. As he indicated in hearings last week, allocating 
money is easy when you don't have any.
    Our decisions were straightforward and aided by the fact 
that every committee came before us with the requisite 5 
percent reduction as compared to the last Congress. Virtually 
every committee chair and ranking member pointed out the 
challenges they are facing retaining and compensating their 
staffs. Across the board and on a bipartisan basis, they 
represent our greatest asset and are largely the reason we are 
able to accomplish the work of the people. Now more than ever I 
think we should acknowledge their hard work, and I continually 
thank them and thank them for the cuts they had to make, and I 
urge my colleagues to support this resolution.
    The Chairman. Thank you very much, Mr. Brady.
    H. Res. 147, the Omnibus Committee Funding Resolution, 
authorizes our committee budgets for the 112th Congress. As was 
suggested, each committee has proposed 5 percent budget 
reductions from fiscal year 2010 levels. As each chair and 
ranking member testified, they are reallocating resources, 
reassessing staff needs, all the while maintaining their 
commitment to excellence in their committee work. Obviously, 
families across this country are doing the same, and we must as 
well.
    Additionally, we have received statements from ranking 
members and chairmen that they had worked out their allocation 
amongst themselves with the budget considering the traditional 
one-third/two-thirds split.
    So this resolution is a simple, straightforward, sensible 
measure empowering our committees to do their work within the 
budgets so established. I urge adoption of H. Res. 147.
    If Mr. Brady has any further comments on this--he does not, 
so I will now call up and lay before the committee House 
Resolution 147, the Omnibus Committee Expense Resolution of the 
112th Congress. Without objection, the resolution will now be 
considered as read and open to amendment at any point.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Does any member wish to be heard on the 
resolution?
    Does any member wish to offer an amendment to the 
resolution?
    Hearing none, I will now move the committee's report H. 
Res. 147 favorably to the House. The question is on the motion. 
All those in favor, signify by saying aye. Any opposed?
    The ayes have it, and the motion is agreed to. The 
resolution will be reported to the House.
    Without objection, the motion to reconsider is laid upon 
the table.
    Does any member wish to file supplemental minority or 
additional views for inclusion in the committee report?
    Mr. Brady. Mr. Chairman, I announce that the minority 
requests 2 additional days provided by Clause 2(L) of Rule XI 
of the Rules of the House to file additional views.
    The Chairman. Without objection. Pursuant to clause 2 of 
Rule VI, the member is entitled to two additional calendar days 
to file such views in writing and signed by any member with the 
clerk of the committee.
    I ask unanimous consent that the committee staff be 
authorized to make any necessary technical or conforming 
changes to the measure the committee just considered. Without 
objection, it is so ordered.
    Now consistent with past bipartisan practice, the official 
mail amounts for standing and select committees of the House 
are set by resolution from the Committee on House 
Administration. We have limited or capped each committee's 
allocation to $5,000 per session of Congress. To meet this 
obligation, the committee shall now consider the resolution to 
grant the official mail allowances for the committees for the 
first and second sessions of the 112th Congress.
    Our committees perform vital roles in the House, and their 
franked mail allowance give them some flexibility to 
communicate the job that they are doing. I would urge adoption 
of the committee resolution, and I recognize Ranking Member 
Brady for any statement he may have.
    Mr. Brady. Thank you, Mr. Chairman.
    The committee resolution fixing the amount available for 
franking by House committees continues the practice of limiting 
mass mailings by committees proposed by our late colleague, 
Juanita Millender McDonald, in the 109th Congress. This 
committee has adopted similar versions of the franking 
resolution in the past with bipartisan support. The resolution 
will limit each committee to $5,000 per session. I am pleased 
to see this practice continued in the 112th Congress, and I 
urge an aye vote.
    The Chairman. Thank you very much for your comments.
    I now call up the Committee Resolution to Approve Franked 
Mail Allowances for Committees for the 112th Congress. The 
resolution limits the franked mailed allowances to committees 
for this Congress.
    Without objection, the resolution will be considered as 
read and open to amendment at any point.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Does any member wish to be heard on the 
resolution?
    Does any member wish to offer an amendment to the 
resolution?
    If not, the question is on agreeing to the committee 
resolution. All those in favor, signify by saying aye. Opposed, 
no.
    In the opinion of the chair, the ayes have it. The 
resolution is agreed to.
    Without objection, the motion to reconsider is laid on the 
table. I ask unanimous consent that the committee staff be 
authorized to make any necessary technical or conforming 
changes to the measure the committee just considered. Without 
objection, it is so ordered.
    Pursuant to the committee's responsibilities under the 
Congressional Budget Act of 1974 and House Rule X, the 
committee must submit views and estimates on certain matters 
within the jurisdiction of the Committee on the Budget. 
Traditionally, committees have used their views and estimates 
to comment on the President's budget submission. This committee 
resolution states the committee's views and estimates on two 
nonlegislative agencies we oversee: the FEC, the Federal 
Election Commission, and the Election Assistance Commission.
    The FEC is an independent, bipartisan commission which 
facilitates transparency in the Federal election process 
through public disclosure of campaign finance data. It also 
encourages compliance with the Federal Election Campaign Act as 
well as interpreting and administering the Presidential 
Election Campaign Fund, the Presidential Primary Matching 
Payment Account Act. The FEC also enforces these acts through 
audits, investigations, and civil litigation.
    The fiscal year 2012 Presidential Budget Request for the 
FEC is the same as the 2010 fiscal year request. The FEC's 
budget reflects the resources necessary to carry out its 
mission in the upcoming fiscal year. I will say this committee 
will conduct vigorous oversight to identify possible future 
savings.
    This committee resolution also addresses the Election 
Assistance Commission created to assist with implementation of 
the Help America Vote Act of 2002.
    The Presidential Budget Request for fiscal year 2012 leaves 
the EAC with a net operating budget of $10,465,665. This is a 
reduction from its allocation in fiscal year 2010 and the 
fiscal year 2011 continuing resolutions.
    Our Subcommittee on Elections will conduct an oversight 
hearing on the EAC later this month to consider its operations 
to date and its budget request. I would urge adoption of this 
committee resolution.
    I would now recognize Ranking Member Brady for any 
statement.
    Mr. Brady. Thank you, Mr. Chairman.
    I generally support the proposed views and estimates but 
disagree with specific sections related to the Election 
Assistance Commission. My Democratic colleagues and I will 
submit additional views that address our concerns.
    We also look forward to further discussing the EAC in next 
week's hearing, and I will vote aye on this resolution.
    The Chairman. I thank the gentleman.
    I would now call up Committee Resolution to Approve 
Committee Views and Estimates for Fiscal Year 2012. The 
resolution contains the committee's views and estimates of the 
activities of the Federal Election Commission and the Election 
Assistance Commission.
    Without objection, the resolution will be considered as 
read and open to amendment at any point.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Does any member wish to be heard on the 
resolution?
    Does any member wish to offer an amendment to the 
resolution?
    If not, the question is on agreeing to the committee 
resolution. All those in favor, signify by saying aye. Opposed, 
no.
    In the opinion of the chair, the ayes have it, and the 
resolution is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table. I ask unanimous consent that the committee staff be 
authorized to make any necessary technical or conforming 
changes to the measure of the committee just considered. And 
without objection, it is ordered.
    This committee resolution approves the committee consulting 
contract with Baker and Hostettler for the first session of the 
112th Congress. Contracts such as this help us as a committee 
to perform our election oversight duties. I would urge adoption 
of the resolution.
    I would now recognize Ranking Member Brady for any 
statement.
    Mr. Brady. Thank you, Mr. Chairman.
    I support this committee resolution and wish to inform you 
that the Democratic members may retain their own outside 
counsel in the future and hope that the committee will support 
a contract for that at the appropriate time. And I urge an aye 
vote.
    The Chairman. I appreciate the gentleman's comments, and 
they reflect our understanding.
    I would now call up the Committee Resolution to Approve a 
Committee Consulting Contract. The resolution approves a 
contract with consultants to advise this committee with respect 
to matters within its jurisdiction. Without objection, the 
resolution will be considered as read and open to amendment at 
any point.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Does any member wish to be heard on the 
resolution?
    Does any member wish to offer an amendment to the 
resolution?
    If not, the question is on agreeing to the committee 
resolution. All those in favor, signify by saying aye. Opposed, 
no.
    In the opinion of the chair, the ayes have it. The ayes 
have it, and the resolution is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table. I ask unanimous consent that the committee staff be 
authorized to make any necessary or technical or conforming 
changes to the measure the committee just considered. Without 
objection, it is so ordered.
    Just for the public record, all members had an opportunity 
to review the resolutions before us, including the consultant 
contract, before we entered this chamber; and we had reached 
agreement at that point.
    And if there is no further business, this committee stands 
adjourned.
    [Whereupon, at 1:13 p.m., the committee was adjourned.]

</pre></body></html>
